                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A12030011                                                                  Page 1 of 1



       We received an allegation that intellectual property had been taken from NSF proposals
       (proposal A 1 and proposal B2-proposal A is a resubmission of proposal B), based on the
       presence of similar ideas in a manuscript authored by someone (the subject) 3 at another
       institution.

       Our investigation found that neither the subject nor the subject's collaborators had been a
       reviewer of the proposals. Because no direct connection exists between the NSF proposals and
       the manuscript through the NSF review process, there is no evidence to support a violation of
       NSF's merit review. This case is closed with no further action taken.




         1
           [redacted]
         2
           [redacted]
         3
           [redacted]




NSF OIG Form 2 (11/02)
